<html>
<title> - THE ROLE OF MITIGATION IN REDUCING FEDERAL EXPENDITURES FOR DISASTER RESPONSE</title>
<body><pre>[Senate Hearing 113-497]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-497

 THE ROLE OF MITIGATION IN REDUCING FEDERAL EXPENDITURES FOR DISASTER 
                                RESPONSE

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON EMERGENCY
 MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND THE DISTRICT OF COLUMBIA

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 14, 2014

                               __________

                   Available via http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs
                        
                        
         [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
                        
                               
                         U.S. GOVERNMENT PRINTING OFFICE 

89-685 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                   
 
 
 
 
 
 
 
 
 
 
 
 
 
                        
                        
                        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                  THOMAS R. CARPER, Delaware Chairman
CARL LEVIN, Michigan                 TOM COBURN, Oklahoma
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           ROB PORTMAN, Ohio
JON TESTER, Montana                  RAND PAUL, Kentucky
MARK BEGICH, Alaska                  MICHAEL B. ENZI, Wyoming
TAMMY BALDWIN, Wisconsin             KELLY AYOTTE, New Hampshire
HEIDI HEITKAMP, North Dakota

                  Gabrielle A. Batkin, Staff Director
               John P. Kilvington, Deputy Staff Director
               Keith B. Ashdown, Minority Staff Director
                     Laura W. Kilbride, Chief Clerk
                     Lauren Corcoran, Hearing Clerk


SUBCOMMITTEE ON EMERGENCY MANAGEMENT, INTERGOVERNMENTAL RELATIONS, AND 
                        THE DISTRICT OF COLUMBIA

                      MARK BEGICH, Alaska Chairman
CARL LEVIN, Michigan                 RAND PAUL, Kentucky
MARK L. PRYOR, Arkansas              JOHN MCCAIN, Arizona
MARY L. LANDRIEU, Louisiana          ROB PORTMAN, Ohio
JON TESTER, Montana                  MICHAEL B. ENZI, Wyoming
HEIDI HEITKAMP, North Dakota
                     Pat McQuillan, Staff Director
                Brandon Booker, Minority Staff Director
                       Kelsey Stroud, Chief Clerk
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                       
                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Begich...............................................     1

                               WITNESSES
                        Wednesday, May 14, 2014

David Miller, Associate Administrator, Federal Insurance and 
  Mitigation Administration, Federal Emergency Management Agency, 
  U.S. Department of Homeland Security...........................     3
Christopher Currie, Director, Emergency Management and National 
  Preparedness Issues, Government Accountability Office..........     5
Chad Berginnis, Executive Director, Association for State 
  Floodplain Managers............................................     7
Robert Detlefsen, Vice President of Public Policy, National 
  Association of Mutual Insurance Companies......................     9

                     Alphabetical List of Witnesses

Berginnis, Chad:
    Testimony....................................................     7
    Prepared statement...........................................    62
Currie, Christopher:
    Testimony....................................................     5
    Prepared statement...........................................    44
Detlefsen, Robert:
    Testimony....................................................     9
    Prepared statement...........................................    78
Miller, David:
    Testimony....................................................     3
    Prepared statement...........................................    33

                                APPENDIX

Statement for the Record submitted by the National Association of 
  Home Builders..................................................    86
Responses to post-hearing questions for the Record:
    Mr. Miller...................................................    92
    Mr. Currie...................................................   101

 
                       THE ROLE OF MITIGATION IN
          REDUCING FEDERAL EXPENDITURES FOR DISASTER RESPONSE

                              ----------                              


                        WEDNESDAY, MAY 14, 2014

                                 U.S. Senate,      
              Subcommittee on Emergency Management,        
                         Intergovernmental Relations,      
                          and the District of Columbia,    
                    of the Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:34 p.m., in 
room 342, Dirksen Senate Office Building, Hon. Mark Begich, 
Chairman of the Subcommittee, presiding.
    Present: Senators Begich, Landrieu and Pryor.

              OPENING STATEMENT OF SENATOR BEGICH

    Senator Begich. We will go ahead and call this meeting to 
order of the Subcommittee on Emergency Management, 
Intergovernmental Relations, and the District of Columbia. The 
hearing is ``The Role of Mitigation in Reducing Federal 
Expenditures for Disaster Response.''
    We thank the panel for being here.
    I have a few opening comments. We will be joined by one or 
two other Senators throughout, but I, again, appreciate 
everyone being here.
    We are here today to examine the relationship between 
investing in mitigation activities before a disaster and 
spending less to respond and to recover from floods, 
earthquakes, hurricanes and tornadoes.
    For the last year, the Subcommittee has examined a number 
of critical issues affecting the emergency management 
community. We have discussed grants to make sure that our State 
and local first responders are well trained and properly 
equipped, highlighted the ongoing challenges facing communities 
recovering from Superstorm Sandy and discussed the real threat 
erosion and extreme weather posed to communities throughout 
Alaska.
    Oversight on these challenges is important, but response 
and recovery is, by nature, reactive. So we must also make sure 
we are doing all we can to anticipate and bring down future 
costs.
    It makes sense to turn our attention to a very common-sense 
action that has the potential to make the communities safer and 
significantly reduce the amount we as a Nation spend on 
responding and rebuilding after disasters.
    Mitigation must be a national priority. While much of the 
investment in mitigation comes during the recovery process, as 
we are seeing following disasters like last year's devastating 
flooding along the Yukon in Alaska, taking action before a 
disaster is still the most effective way to save lives and 
money.
    We have all heard the statistics often cited by supporters 
of mitigation. For a dollar spent on risk reduction before 
disaster strikes, we save four dollars in response and recovery 
costs. At a time when we are focused on balancing the budget 
and reducing our debt, we cannot pass up opportunities like 
this.
    According to the National Academies of Science, Federal 
expenditures post-disaster are borne by the entire country and 
have been growing steadily for the past 60 years.
    In 1953, for example, Federal spending on disasters totaled 
$21 million. We would love to hear those numbers again.
    In 2009, with many more disaster declarations, the Federal 
Government spent $1.4 billion. This does not even include in 
the account for billions spent by the private sector, 
individuals, cities, States and others impacted by such 
disasters.
    As we spend less and less on mitigation programs in our 
discretionary funding, we continue to see Federal, State and 
local expenditures on disaster relief climb to new heights. The 
time has come to ask ourselves, instead of doing the same thing 
over and over, and getting the same results, can we invest 
taxpayer dollars more strategically before a disaster happens 
to save more lives and better protect our economy?
    I have seen the results of inaction firsthand. I visited 
with residents of the villages along the Yukon River last year 
and heard their accounts of dangerous late-night evacuations 
out of Galena as flood waters swept their homes away.
    I was joined in Alaska by the Federal Emergency Management 
Agency (FEMA) Administrator Craig Fugate just last month. We 
walked through the mud on a vacant property, stepping over the 
remains of a home that due to continued erosion had recently 
fallen into the Matanuska River.
    Last fall, I was joined up in Nome by Mr. Miller, who joins 
us here today, and other FEMA officials to see the devastating 
effects of coastal erosion. This slow-moving disaster is 
getting worse by the year, but smart investments could reverse 
the damage.
    The price of investment can be high, but inaction is far 
more expensive. We do not have to create entirely new programs, 
departments or agencies to promote mitigation. It makes sense 
to build on the strong structures that already exist at the 
Federal, State and local levels.
    The cost of disasters are a strain on all levels, from 
victims' pocketbooks to the Federal budget. At the Federal 
level, the Disaster Relief Fund (DRF) and the National Flood 
Insurance Program (NFIP) continue to feel the pinch whenever a 
disaster strikes. As development has increased so has exposure 
to huge disaster costs.
    The DRF funds FEMA, supports State and local responders, as 
well as reimburses for damages to homes and infrastructure. We 
have seen time and again that Congress has to pass supplement 
funding after a disaster to avoid running out of money in the 
middle of a recovery process. This $7 billion fund is 
constantly being stretched, especially as extreme weather 
increases.
    The NFIP is buried in debt, which now sits at $25 billion. 
Even though flooding is this Nation's biggest threat, 
mitigation funds continue to be underutilized. The NFIP will 
continue to be a drain on our economy unless we can find a way 
to balance affordability with real awareness of risk and 
concrete action to reduce it.
    Mitigation is a common-sense solution, but it is not easy. 
Investment can be a tough sell in rough economic times, but we 
must stop focusing on recovery from the last disaster with no 
eyes to the future. We must look ahead and prepare our homes, 
schools, businesses and critical infrastructure for the threats 
of the future.
    I believe this issue is one of the greatest challenges 
facing the emergency management, development and insurance 
communities, and I look forward to discussing the best ways 
forward.
    We will start from this side, down. And, if a member comes 
in, I may pause you to allow them to make their opening 
comments and then we will continue with the testimony if that 
is OK.
    Again, Mr. Miller, thank you, and it was great to have you 
up north.
    The weather is better today. Alaska is experiencing extreme 
warm weather compared to our usual season. We have been 
averaging, 65-plus weather for the last several weeks which is 
not heard of until we get deeper into May. So we are very 
happy.
    But it also creates, as I just saw a warning, fire hazards 
now increasing before our season has even started to be 
mobilized. So we know we have some issues.
    But, again, Mr. Miller, thank you.
    He is the Associate Administrator of the Federal Insurance 
and Mitigation Administration (FIMA) at FEMA.
    We thank you for being here, and we appreciate your 
attendance.
    And, if I could say, all your written statements will be 
also entered into the record.

TESTIMONY OF DAVID MILLER,\1\ ASSOCIATE ADMINISTRATOR, FEDERAL 
  INSURANCE AND MITIGATION ADMINISTRATION, FEDERAL EMERGENCY 
    MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Miller. Thank you, Mr. Chairman.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Miller appears in the Appendix on 
page 33.
---------------------------------------------------------------------------
    I am David Miller, the Associate Administrator for the 
Federal Insurance and Mitigation Administration at the 
Department of Homeland Security's (DHS) Federal Emergency 
Management Agency.
    I am here to discuss FEMA's mitigation programs and how we 
educate, incentivize and fund State, local, tribal and 
territorial efforts to build stronger communities that 
collectively create a Nation more resilient to an increasing 
number and intensity of hazards.
    The benefits of effective mitigation are well established. 
Mr. Chairman, as you just mentioned, we all look at the often 
quoted study that says the return on investment is four dollars 
for every dollar invested. Collectively, it is estimated that 
mitigation programs annually save the American public $3.4 
billion in losses avoided.
    Investments in mitigation also serve to buy down risk, 
meaning that making positive changes lowers the probability of 
risk and makes communities safer and more resilient while 
contributing to the sustainability of the National Flood 
Insurance Program. Buying down risk is critically important as 
a higher percentage of our population is living in vulnerable 
areas than ever before.
    FEMA has made significant strides in the last 3 years in 
the area of mitigation, bringing in the larger mitigation 
community together, including the private sector, around shared 
doctrine, partnering with governments at all levels and giving 
communities the funding, tools and information they need to 
make informed, data-driven decisions that minimize the risk 
they have identified.
    This work was bolstered in 2011 with the release of 
Presidential Policy Directive (PPD) 8 on National Preparedness. 
This directive defined the mitigation mission area and required 
the development of a National Mitigation Framework.
    In turn, the framework established the Mitigation Framework 
Leadership Group (MitFLG). It is a senior-level group that 
works to coordinate national-level mitigation activities and 
implement policies in consultation with Federal agencies and 
State, local, tribal and territorial governments.
    Among other important work, the MitFLG is currently 
developing a consistent Federal flood risk management standard 
for Federal funds that are being used in Hurricane Sandy 
rebuilding, and that may be applied to future disasters.
    We established the MitFLG in part to assure that we 
collectively consider changes in our climate as we plan for the 
future. The emphasis is in keeping with our larger commitment 
and continued focus on moving forward to build to the future 
and to consider its potential risk rather than building back to 
pre-disaster conditions.
    Our responsibility to build to the future is informed by 
the President's Executive Order (EO) and Climate Change Action 
Plan, as well as our role in helping prepare the Nation for 
future impacts of climate change, including considering rising 
sea levels, the increasing frequency and intensity and duration 
of storms, and the increasing unpredictability of drought and 
wet cycles.
    As we work to reduce risk nationally and address both 
hazards and threats, we must incorporate climate change into 
our data collection, knowledge transfer and mitigation 
planning. So we are working toward that goal.
    Specifically, FEMA is working to integrate adaptation into 
its approach and also the approaches of the larger Federal 
Government. To do this, the agency is expanding its knowledge 
base and support for those who take on the challenge of climate 
adaptation.
    As the Committee is aware, FEMA oversees and manages a 
number of grant programs to support mitigation efforts. We talk 
about the Hazard Mitigation Grant Program (HMGP), Pre-Disaster 
Mitigation (PDM) Grants and the Flood Mitigation Assistance 
(FMA) Programs. These programs have assisted governments in 
rebuilding and building stronger and more resilient 
communities.
    In Alaska, FEMA has awarded approximately $2.7 million in 
Hazard Mitigation Grant Program funding since 2013. It has been 
used to acquire 11 homes in the city of Cordova, relocate 3 
homes in Alakanuk--bolster warning systems in the city of 
Bethel, stabilize----
    Senator Begich. As we say in Alaska, it is all covered.
    Mr. Miller. Thank you, sir.
    Stabilize the embankment for the Alaskan Railroad and 
construction of a new bridge, perform an avalanche study for 
Mt. Juneau, install seismic shut-off values at all fire 
stations in Anchorage, bury power lines in Anchorage and 
relocate power lines in the Kenai Peninsula.
    In Kentucky, FEMA awarded more than $10 million in HMGP 
funding in 2014 to acquire 65 homes in 8 counties, as well as 
to build 12 safe rooms in Allen, Warren and Webster Counties. 
This funding has also helped improve draining systems in 
Hopkinsville, Cooper Park and the city of Richmond; reconstruct 
road bridges in Grayson, Grundy and Marion Counties; and update 
the mitigation plans for the State, Louisville/Jefferson County 
and the University of Louisville.
    Another way for a community to address their risk is 
participating in the Community Rating System which lowers NFIP 
rates for communities that make positive changes.
    Recently, we analyzed our growing body of current and 
historical data to determine which of these changes reduced 
risk by the greatest degree. Then we adjusted our credits to 
give communities that made these changes discounts that 
reflected these reduced risks. In total, nearly 1,300 
communities participated in the Congressional Research Program 
(CRS), representing 67 percent of all National Flood Insurance 
Program flood insurance policies.
    In conclusion, successful mitigation efforts are a shared 
responsibility, requiring an engagement of all levels of 
society and the government. Moving forward, we will continue to 
focus on strengthening our data analytics while setting 
priorities that will help us mitigate and buy down our future 
risk. FEMA's commitment to ensuring the success of these 
efforts rests in the fact that they ultimately result in more 
resilient communities and collectively make us stronger and 
more prepared as a Nation.
    Thank you for providing me with this important opportunity, 
and I look forward to your questions.
    Senator Begich. Thank you very much, Mr. Miller.
    Next I have Mr. Christopher Currie, who is the Director of 
the Emergency Management and National Preparedness Issues at 
the Government Accountability Office (GAO).

    TESTIMONY OF CHRISTOPHER CURRIE,\1\ DIRECTOR, EMERGENCY 
    MANAGEMENT AND NATIONAL PREPAREDNESS ISSUES, GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Mr. Currie. Yes, sir. Thank you, Chairman Begich, Senator 
Pryor. I appreciate you having me here today to talk about 
GAO's past work on disaster mitigation.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Currie appears in the Appendix on 
page 44.
---------------------------------------------------------------------------
    Mr. Chairman, as you mentioned in your opening statement, 
mitigation efforts help to build more resilient communities and 
the benefits are universally accepted.
    As you pointed out, over the last decade, Federal disaster 
spending has skyrocketed. We spend more responding to single 
weather events, like Hurricane Sandy, than we used to spend on 
disasters over the course of a whole decade.
    The menu of solutions to address this trend is short, and 
mitigation is one of the few options we have to reduce future 
costs. To compound this, we currently face several challenges 
that make solving this problem even more complex.
    First, what were once considered extreme and rare weather 
events are now expected to become the norm.
    Second, the Federal Government does not fully budget for 
the huge costs of these more routine disasters.
    Third, key programs that help us limit the financial impact 
of disasters, namely, the National Flood Insurance Program, can 
no longer keep up. The program is now $24 billion in debt and 
faces a difficult uphill battle to remain sustainable.
    Taken together, these challenges create massive risks and 
fiscal exposure for the Federal Government. The solutions to 
these challenges are hard, and with another hurricane season 
approaching one cannot help but wonder what may be coming next.
    Over the last 30 years, we at GAO and many others have 
reported a consistent message about hazard mitigation. It is 
key to reducing disaster assistance costs for all levels of 
government.
    However, mitigation is not cheap, as you pointed out, and 
there are many challenges. Here are just a few examples that we 
have reported that make it difficult.
    First, as the Federal Government shoulder more and more of 
the burden for disaster costs, expectations for a similar 
response increase while incentives for mitigation may decrease.
    Second, mitigation efforts often conflict with desires to 
develop in hazardous areas such as along oceans and waterways.
    Third, it is difficult to convince individuals of the risks 
they face and why mitigation is important.
    Raising a house to withstand future flooding, retrofitting 
existing buildings to withstand earthquakes or relocating a 
native village because of erosion are complicated and expensive 
projects.
    As part of our ongoing work for this Committee, we are 
encouraged by efforts across the Federal Government to 
encourage mitigation and resilience, particularly since 
Hurricane Sandy. For example, the Sandy Supplemental provides 
about $350 million in funding for FEMA's Hazard Mitigation 
Grant Program, the largest of FEMA's mitigation grants.
    Also, FEMA is taking mitigation seriously, and encouraging 
resilience is becoming a prominent theme in its mission and 
planning. For example, last year FEMA issued a National 
Mitigation Framework, which we previously recommended they do. 
They also issued a National Strategy for Reducing Disaster 
Costs.
    While more funding for mitigation is great, FEMA is also 
taking steps to reduce paperwork, relieve administrative burden 
and speed up the hazard mitigation process. They are also 
taking steps to align mitigation grants with public assistance 
dollars after a disaster.
    And it is not just FEMA. Other agencies, like the 
Department of Housing and Urban Development (HUD), are also 
emphasizing mitigation a part of their grant programs to 
States.
    We think these are steps in the right direction. However, 
to use FEMA's term, building a mitigation-minded culture will 
not happen overnight and execution will be key. We will 
continue to evaluate these and other Federal mitigation efforts 
as part of our ongoing work for this Committee and plan to 
report to you later this year.
    Mr. Chairman, the last point I want to make is that Federal 
efforts to encourage mitigation are not enough. State, local 
and tribal governments, as well as the private sector, play the 
biggest role in encouraging mitigation. In my written 
statement, we provide several examples at the State and local 
levels of efforts to incentivize this mitigation.
    This completes my prepared marks. I would be happy to 
answer any questions you have.
    Senator Begich. Thank you very much.
    Next we have Chad Berginnis?
    Thank you very much for being here--the Executive Director 
of the Association of State Floodplain Managers (ASFPM).

TESTIMONY OF CHAD BERGINNIS,\1\ EXECUTIVE DIRECTOR, ASSOCIATION 
                  OF STATE FLOODPLAIN MANAGERS

    Mr. Berginnis. Thank you very much, Chairman Begich.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Berginnis appears in the Appendix 
on page 62.
---------------------------------------------------------------------------
    We are pleased to offer our thoughts related to the 
investment in hazard mitigation relative to the cost of 
disaster response. We thank you and this Subcommittee for 
focusing on the value proposition of a comprehensive national 
hazard mitigation effort.
    ASFPM's 15,000 members and 35 chapters are the country's 
practitioners who work with flood hazard mitigation programs on 
a daily basis.
    Let's put the disaster costs into perspective based on the 
available data.
    The Center for American Progress reported that the Federal 
Government spent $136 billion from fiscal year (FY) 2011 to 
2013 on disaster relief. This adds up to an average of nearly 
$400 per household per year. For the hazard of flooding, annual 
damages now exceed $10 billion a year, up from $5.6 billion a 
year in the 1990s.
    But FEMA's April report to Congress on the use of the 
Disaster Relief Fund shows the relative priority of mitigation 
as it relates to the larger disaster fund expenditures in 
general. In that report, the estimated totals through fiscal 
year 2014 are projected to be $349 million for hazard 
mitigation and $12.04 billion for all other categories, such as 
public assistance, individual assistance, operation and 
administrative costs.
    Even if the total investment in hazard mitigation for 
Hurricane Sandy eventually reached 15 or 20 percent of the 
total disaster cost, we have to ask, is that the right level 
for our mitigation investments; should we have a national goal 
that is higher, or are we simply going to keep pouring money 
into disaster response?
    Population trends and climate change are increasing the 
Nation's vulnerability. As the costs of disasters continue to 
rise, our Nation cannot afford the status quo. Hazard 
mitigation investments are the only element of disaster 
expenditures that will result in the reduction of long-term 
disaster costs.
    Over the past 25 years, there have been several hazard 
mitigation programs created across the Federal Government that 
can be applied to reduce disaster losses. These programs range 
from planning to grants to loans and other mechanisms. However, 
these programs need to be optimized to improve their 
effectiveness and efficiency.
    Our written testimony not only identifies these programs 
but contains 24 specific recommendations to optimize them. I 
would like to highlight two items, though.
    The first is that ASFPM strongly supports the Pre-Disaster 
Mitigation Program and are again disappointed that the 
Administration's proposed budget has zeroed the program out.
    The second is that all of these programs rely on sound 
flood risk data or hazard data. For the hazard of flooding, we 
must ensure that we have a robust funding and support for 
FEMA's National Flood Mapping Program and the U.S. Geological 
Survey (USGS) National Streamflow Information Program. Both are 
funded at less than a quarter of their authorized amount. 
Accurate, up-to-date flood hazard data is essential so that 
communities and individuals can make resilient rebuilding 
decisions and maximize the effectiveness of all of the Federal 
Government's hazard mitigation programs.
    But, in ASFPM's view of a national hazard mitigation 
effort, everybody must do their part, and it is important that 
you know that the Federal Government's investment in hazard 
mitigation is being supplemented by State and local investments 
as well.
    The Village of South Holland, Illinois is one such 
community. They have established a unique mitigation rebate 
program available to all property owners who wish to complete 
flood control projects. South Holland, by the way, is a 
community of 23,000 people.
    In 2009, the city of Findlay, Ohio passed a quarter percent 
sales tax to fund flood mitigation activities and provide match 
for Federal projects after several large floods in that 
previous decade.
    At the State level, many States, including California, 
Minnesota, Wisconsin, Ohio, New Jersey and South Carolina, have 
their own mitigation programs or a tradition of matching 
Federal mitigation funds.
    In Colorado, homeowners in the Wildland Urban Interface may 
deduct half of up to $5,000 in cost for wildfire mitigation 
measures, with a maximum potential deduction of $2,500 from 
their Colorado taxable income. Wildfire mitigation measures 
include establishing defensible space around residences, 
thinning vegetation or other site work.
    Such State and local programs should be incentivized, 
encouraged and increased.
    So what is the outcome that we are striving for?
    Wouldn't it be nice if you as Members of Congress did not 
have to pass supplemental disaster appropriations bills after a 
major hurricane or flood strikes, or at least deal with a much 
smaller bill such as maybe $21 million?
    Hazard mitigation can take us to the point that when our 
next disaster occurs damage is minimized, cleanup is quick and 
people get back to their lives quickly with minimal disruption, 
and State and local capability to handle the event is not 
exceeded.
    Hazard mitigation can result in resilient communities and 
States. That is the goal.
    Thank you.
    Senator Begich. Thank you very much, and again, we 
appreciate your testimony.
    Is it Robert Detlefsen?
    Mr. Detlefsen. Perfect.
    Senator Begich. Oh, good. Thank you.
    He is the Vice President of Public Policy, National 
Association of Mutual Insurance Companies (NAMIC), and is 
testifying on behalf of the BuildStrong Coalition.
    But you do wear two hats, which is, important to note--the 
insurance, but you are here on behalf of the BuildStrong 
Coalition--and we thank you for doing that.

  TESTIMONY OF ROBERT DETLEFSEN,\1\ VICE PRESIDENT OF PUBLIC 
   POLICY, NATIONAL ASSOCIATION OF MUTUAL INSURANCE COMPANIES

    Mr. Detlefsen. Chairman Begich, Ranking Member Paul and 
Members of the Subcommittee, the BuildStrong Coalition thanks 
you for holding this hearing to examine the vital role that 
mitigation can play in reducing post-disaster recovery costs.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Detlefsen appears in the Appendix 
on page 78.
---------------------------------------------------------------------------
    My name is Bob Detlefsen, and I am Vice President of Public 
Policy for the National Association of Mutual Insurance 
Companies.
    NAMIC is proud to be a founding member of the BuildStrong 
Coalition, a group of national business and consumer 
organizations, insurance companies, firefighters, emergency 
managers and building professionals dedicated to promoting 
better building standards and a more resilient America.
    The BuildStrong Coalition shares the Subcommittee's goal of 
helping communities prepare for, and recover from, natural 
disasters while saving taxpayer money in the process.
    The insurance industry is on the front line of these 
disasters. We help individuals and businesses prepare for, and 
recover from, the potentially devastating effects of 
catastrophic hurricanes, storms and wildfires.
    Superstorm Sandy, one of the most damaging storms to hit 
the United States, caused 72 deaths and almost $19 billion in 
insured property losses in 15 States and the District of 
Columbia. Losses from this storm totaled nearly $50 billion, 
$19 billion of which came from lost economic activity. Our 
companies are still there, helping people finish the job of 
recovery.
    Insurance coverage for losses resulting from natural 
disasters is typically less than 20 percent of the total, 
however. The Federal Government covers the remainder of the 
cost through emergency allocations which require spending that 
directly increases the national debt. For decades, Congress has 
provided insufficient funding for disaster relief and then 
added funds in the middle of fiscal years after disasters 
happen. Supplemental disaster funds were appropriated in 17 of 
the 22 budget years between fiscal year 1989 and 2010, 
according to the Congressional Research Service.
    Since 1983, these disasters have cost nearly $1 trillion. 
That is roughly an average of $32 billion a year.
    Not enough is being done at the Federal level to 
incentivize States to promote more resilient building 
construction. There is overwhelming scientific evidence to 
support the conclusion that statewide building codes save lives 
and greatly reduce property damage and the subsequent need for 
Federal disaster aid.
    For example, the National Institute of Building Sciences 
found that for every one dollar spent to make buildings 
stronger the American taxpayer saves four dollars in Federal 
disaster assistance.
    The Louisiana State University Hurricane Center estimated 
that stronger building codes would have reduced wind damage 
from Hurricane Katrina by 80 percent, saving $8 billion.
    The Institute for Building and Home Safety (IBHS) conducted 
a study following Hurricane Charley in 2004 and found that 
modern building codes reduced the severity of property losses 
by 42 percent and frequency of losses by 60 percent.
    Standardizing building codes will save lives and taxpayer 
dollars. In some locations, they also favorably affect the 
availability and affordability of insurance.
    One effective step Congress should take to reduce the cost 
of natural disasters is to encourage investment by local 
communities and individuals in risk mitigation. To that end, 
the BuildStrong Coalition strongly endorses S. 924, the Safe 
Building Code Incentive Act, as a forward-thinking measure that 
will result not only in the construction of stronger, safer 
homes and businesses but will save lives and prevent losses, 
including losses borne by the Federal Government.
    A 2012 Milliman study found that S. 924 would have saved 
U.S. taxpayers $11 billion in hurricane relief payments alone 
between 1988 and 2011 had it been in place. That is almost $500 
million a year in savings for Federal taxpayers.
    Under the proposed law, States that adopt and enforce 
nationally recognized model building codes for residential and 
commercial structures would qualify for an additional 4 percent 
of funding available for post-disaster grants.
    Another proposal the BuildStrong Coalition has endorsed is 
S. 1991, the Disaster Savings Account Act of 2014, which allows 
homeowners to create tax-free savings accounts to be used for 
mitigation investments. Small up-front costs to make a home 
more resilient not only save lives but can save countless 
dollars for homeowners and spare the pain of losing everything 
in a disaster.
    Just last month during a single week, over 75 million 
Americans, or one-third of the U.S. population, were under the 
threat of severe weather, indicating that no region in this 
country is immune from the perils of natural disasters.
    In closing, I want to thank the Subcommittee again for 
holding this important hearing. The overwhelming evidence 
supporting the widespread adoption of statewide building codes 
proves that the Safe Building Code Incentive Act is a fiscally 
responsible way to make our country stronger, safer and better 
prepared for natural disasters.
    And I look forward to your questions.
    Senator Begich. Great. Thank you. Thank you very much for 
your testimony.
    Thank you all four for being here this afternoon.
    I do have some questions. And I do believe that Senator 
Landrieu may be here, and if so, if I finish my questions, I 
will wait for her. But, if not, we will continue on.
    Let me first ask Mr. Miller.
    Let me walk through a couple things, and this is on, 
obviously, the Pre-Disaster Mitigation Fund.
    I think it was the last few years, and you have heard a 
little bit of testimony on the defunding of it. In the 2015 
budget, there is a proposed Opportunity, Growth and Security 
Initiative that includes $400 million for pre-disaster 
mitigation.
    So this is a two-part question.
    The first part, it almost contradicts itself. We have a 
fund, a mechanism that has been in place for some time, but the 
last 2 years, no money or proposed funding. And then this next 
year there is a proposal to get it funded but then also fund 
something similar with a broader scope of issues and $400 
million in there.
    If it is a priority, why not just fund it?
    Now maybe this is not a question you can answer because it 
maybe goes to the Office of Management and Budget (OMB) and the 
White House folks who decide what they want to spin out there 
in the marketing of their budgets.
    But it just seems like you have a mechanism. Why not just 
fund it, fund it robustly, so we can get on with doing more 
pre-disaster mitigation?
    Help me understand that.
    Do you see the contradiction there? Maybe I am missing 
something here.
    Mr. Miller. I do, and I saw it in our appropriations and 
authorization discussions as well.
    Senator Begich. Right.
    Mr. Miller. I think you have hit the nail on the head. The 
truth about Pre-Disaster Mitigation Program and the zeroing of 
the budget, is it came at a time when tough budget decisions 
were being made. Frankly, there was not a lot of money in PDM, 
but it was an important function.
    Senator Begich. Right.
    Mr. Miller. A number of the areas that were funded in the 
Pre-Disaster Mitigation Program, though, when there was an 
evaluation of where we were going to make cuts in the overall 
FEMA budget, a lot of those activities could be absorbed into 
other grant areas. We talked about HMGP.
    Now the problem with HMGP is it happens after a disaster.
    Senator Begich. Right.
    Mr. Miller. We can talk about flood mitigation assistance 
and their planning dollars there.
    And we can talk about Emergency Management Performance 
Grants that go to States, and there is a pass-through to local 
governments. It is an eligible activity there, at least if we 
did the planning activity.
    I think the ones that really I have heard are ones that do 
not get disasters and, frankly, were looking for project 
dollars, looking for building dollars.
    Now I have some other areas, and we can pick that up, like 
HMGP, but again, it is after the fact.
    So we recognized the problem with PDM and what it did, but 
there were some opportunities to move that along.
    Senator Begich. But is it fair to say that without that PDM 
money you still are very short-changed in mitigation?
    Mr. Miller. And always will be.
    Senator Begich. Always will be.
    Mr. Miller. And I think part of that discussion--let me go 
back to the $400 million the President talks about in the 
Opportunity, Growth and Security Initiative (OGSI).
    Senator Begich. Right.
    Mr. Miller. I think that the issue there is, No. 1----
    Senator Begich. Just for people who watch this--my mother--
the Opportunity, Growth and Security Initiative, that is what 
you mean by that.
    Mr. Miller. Yes, sir.
    So the Opportunity, Growth and Security Initiative--that is 
a result of savings we may have in the budget.
    Senator Begich. Right.
    Mr. Miller. As that gets re-obligated, what it says for the 
Administration is there is still an emphasis on a want to do 
mitigation activities, this one with a particular focus, and 
the focus will be more on climate and climate adaptation. It 
follows with the President's directives there.
    Senator Begich. If I can pause you there, again, if you 
look at the pre-disaster mitigation funds, I could argue, for 
example, the work that is being done in Alaska--well, where we 
were up there with the administrator, right?
    Here we are in a riverbed. The river has consumed a house. 
They are 50 feet or so away from--maybe a little bit longer, 
but 50 feet away from a road infrastructure. Once that road is 
gone, there may not be a big volume of people who live there, 
and it has an impact a lot to the survival of that community.
    Wouldn't you want pre-disaster mitigation funds to be able 
to deal with that rather than--here is what I am worried about.
    I know this is the politics of the world, that everyone 
wants to have a name on a program and say we did this.
    Why not just put that money into the PDM account and say 
that is what we are going to do, and we focus the PDM account 
on expanding on what it should do, and if that is not enough 
money we request more?
    Why don't we just keep it simple because what you are 
potentially doing is creating another--there is enough 
paperwork and mill to funnel through just to get a dollar for 
pre-mitigation. Why not----
    Mr. Miller. Well, the Opportunity, Growth and Security 
Initiative calls for that money to flow through the PDM 
program. The difference, I think, will be in the look and the 
focus of the program as we move PDM.
    One of the things you mentioned as we were leading into the 
testimony is we tend, even in our current mitigation funding, 
to mitigate against yesterday's event instead of future events.
    Senator Begich. Right.
    Mr. Miller. One of the challenges, though, in moving 
forward to future events is how we look at the data and the 
data that drive the analytics, that talk about the benefit-cost 
of doing it and over what period of time. You mentioned the OMB 
and the discount rates we get in making things cost-beneficial.
    Senator Begich. Right.
    Mr. Miller. We are working all of those issues.
    But, going back to the Opportunity, Growth and Security 
Initiative, the President's look was more future-looking----
    Senator Begich. Gotcha.
    Mr. Miller [continuing]. To take in climate adaptation, but 
it would run through a traditional channel of PDM.
    Senator Begich. OK. Let me ask; you opened up two other 
areas, I want to talk about. And it actually zips back a little 
bit to what Chad brought up in the mapping issues.
    If you have the data, that is great, but I can tell you; in 
Mat-Su, 40 percent of the area that was in a floodplain is no 
longer in a floodplain, but the maps still show it in a 
floodplain, and vice versa. So you have some challenges if you 
are going to think about the future.
    If you take this fund and think about the future, you have 
to plan. But if the data is wrong or inaccurate, it is hard to 
plan that.
    Now pause with that thought for a second.
    Here is, to me, one of my other concerns. I think Chad, you 
said you had 24 or so recommendations in here. If I remember 
the right number, a couple dozen.
    Once you said that and I remembered seeing it in your 
testimony, I got panicked, to be frank with you, not that they 
are not good ideas. Just how long will it take if we take one 
of those ideas. It is a regulatory issue to get it through your 
process.
    So let's just say we see an opportunity. Let's say that the 
Opportunity Fund is funded. That means more money, a little 
more direction, may require some more regulation.
    But as I look at how FEMA operates on regulation 
implementation, meaning the process, it takes forever. That is 
why I panicked when you said 24 suggestions--because I will be 
dead and gone if those were all accepted and implemented.
    And I do not mean that in a negative way. I am just 
frustrated.
    You are not the only agency. I do not want to tag FEMA as 
the problem here because, for example, OMB.
    If you say cost-benefit analysis, I can tell you every--
Galena would never be included. It would never be included 
because the population base is too small, but yet, that 
disaster wiped out the whole city.
    But, on the back end, the cost-benefit, if you took that 
same amount of money and put it into Senator Landrieu's 
community, maybe New Orleans or New York, it would have a 
different kind of impact.
    So, as we look at this cost-benefit analysis, we have to 
look at the community cost, not just the money cost or the 
people volume cost.
    But I am putting that out there, and as I said, I just had 
several random thoughts here.
    I want to get to one specific area and then I am going to 
pause and turn to Senator Landrieu.
    How do we speed up this process?
    I have seen report after report. I mean, one regulation 
took 8 years to get through the process.
    This is why--no disrespect to attorneys--I am not an 
attorney, never want to be an attorney, because when I was 
mayor, if I was an attorney, I would have never gotten anything 
done.
    We rebuilt the city. We did things that probably an 
attorney would look--well, I know I did. A municipal attorney 
would look at me and say, eh . . .
    And I would say, well, but it is the right thing.
    And we did it, and we did some things that made some stuff 
happen.
    So how do we speed up this process without attorneys 
starting with the first view, and that is no, we cannot do that 
versus here is the end goal; let's get going, and I want it 
done in a short period of time? How do we do that?
    Who can pull the trigger to get some of these regulatory 
processes because I think some of these recommendations you 
have--and I looked at them--are good recommendations?
    Some may be regulatory, but I am afraid to suggest it, even 
though I think they would make a big difference and they are 
common sense.
    But how do we deal with this?
    And I know it is a global issue with the Federal 
Government, but I am talking about FEMA because your issues are 
so immediate.
    Mr. Miller. We talk about it in a number of ways.
    Long story short, within FEMA, we have been doing 
regulatory review for the last few years to see what 
regulations we can actually vacate, and that takes time as 
well.
    But more importantly, as we----
    Senator Begich. Well, let me pause you there. See, you just 
answered the question with the wrong answer; it has taken you a 
couple of years.
    I am betting on this. If I took these three people and 
augmented with a couple mayors and a couple State emergency 
management people and said, you have 6 months to review these 
regulations and tell me which ones are no longer necessary, I 
guarantee you they will do it because I did this when I was on 
the assembly and when I was mayor. We did it by department, and 
it was not hard.
    Once you got the stakeholders in, it is a piece of cake.
    Mr. Miller. That is the process we are using--is to work 
with the stakeholders and say what is regulatory and what does 
not need to be regulatory.
    The other part is how we vet policy and move it through.
    But I will give you a for instance. And you have identified 
the problem right on. Even a simple regulatory review--we 
recently did one on a regulation that changed the flood 
planning standard, and it is how States renew plans.
    Senator Begich. All right.
    Mr. Miller. We moved it from a 3-year review cycle to a 5-
year review cycle to make it more current with what locals do 
in their planning environment. It took 2\1/2\ to 3 years to 
change that regulation, and it only changed a few words.
    Senator Begich. Why is that?
    Mr. Miller. We have to go through concurrence, and examine 
the fiscal effects of a regulation. You adjudicate all the 
comments. And even on this one there are people that think the 
review cycle should be shorter and plans may be more robust.
    We go through all of that, vet it, publish it, do the 
things that we need to do, you are about 2 or 3 years down, and 
that is fast for regulatory review.
    If we are doing new regulation, now you are probably 
talking 4 to 6 years in new regulation.
    Senator Begich. It just does not--I will hold this. I will 
pause here because I can get going here.
    But an example you guys did, which I thought was very 
good--under the Sandy Act that we did, you had some new 
opportunity for tribes and instead of waiting for regs you 
started moving, which I thought was great.
    And I am sure your lawyers probably had like heart attacks 
because they thought----
    Mr. Miller. No.
    Senator Begich. Oh, good, you are giving me hope.
    Mr. Miller. It is trying to find the ways to yes, and we do 
it from a number of ways.
    One is if it does not require a regulation, let's do the 
policy. And if it requires us to do a pilot to create the 
policies and we know what we are going to say, let's move it 
forward in doing it.
    So you saw it in Hurricane Sandy recovery, where we are not 
doing regulation in a number of areas, or if we foresee 
regulation, we are at least moving forward with a pilot to tell 
us what the regulation will look for. And we are applying that.
    The harder part for some of those--and it does get to the 
regulatory piece--is if it does require it, how do we make it 
in and how do we go through the regulatory process?
    It is easy to do pilots and to move things, but at the end 
of the day, if we are not going to make it a one-time event, it 
may require regulatory action, and that does take a substantial 
part of time.
    Senator Begich. Let me pause there. I want to turn it to 
Senator Landrieu, but I have questions for the rest of you.
    Mr. Miller, thank you.
    And I know when you are sent over from an agency, you are 
probably thinking, oh, great, I have to go in front of a 
committee; what will they do?
    You can see I am being calm and collected here, but it is 
frustrating because it just does not make sense to me.
    I will give you one example, and I am going to stop. It is 
not related to FEMA, but I remember there was a grant. I will 
not tell this Federal agency because I do not want to get them 
in trouble.
    A community received a grant to do indoor greenhouses to 
grow vegetables in a rural community in Alaska. Why is that 
important? Because a head of lettuce can cost you $5 to $7 by 
the time you get it. So, if they can get it down to $2.50, it 
is a huge savings.
    The money was for planning. He took the money, built the 
greenhouse and just did it. Now it is very successful.
    My point to him was that is exactly what you should do.
    As his Senator, I said, if you get in trouble, let me know 
because we got the result.
    Instead of planning the plan, he actually said, no, we can 
do this, and he did it.
    It saves money for the community and has a youth-oriented 
employment program, and is actually doing something very 
positive.
    That, to me, is what we need to be doing more in the 
Federal Government, to be more innovative and a little more 
entrepreneurial.
    And so I will pause there.
    Sorry, Senator Landrieu.
    Senator Landrieu. That is OK.
    Senator Begich. I got on a rant there because it just 
drives me crazy.
    Senator Landrieu. Well, thank you, Senator, for your 
leadership.
    I wanted to come and just focus for just a minute on the 
flood maps and the flood map planning that is going on, Mr. 
Miller, under your jurisdiction in FEMA and with the input from 
some of the other gentlemen that are at the table. I have just 
a couple questions.
    Thank you for coming to Louisiana to see the fact that 
thousands and thousands of our people have to live close to the 
water, have been doing so for hundreds of years, have no 
intention of moving and have to find a way to live there 
affordably.
    So, as I told you when you came, we were going to pass 
significant reforms to Biggert-Waters, which had many good 
intentions, but it had disastrous consequences for us in 
coastal Louisiana, central Louisiana, north Louisiana, and 
disastrous consequences around the country. And I intend to 
continue working on it, to fix it so middle-class people can 
afford to live where they work.
    Having said that, tell me how many people work for you that 
are in charge of coming up with these flood maps? How many 
currently are full-time employees of yours or full-time 
contractors working on these flood maps?
    Mr. Miller. Senator, I will have to get you the numbers.
    Senator Landrieu. OK. I would like to know.
    Mr. Miller. A lot of it, as you know, is contracted.
    Senator Landrieu. OK. I would like to know the numbers, and 
I would like to know how many full-time equivalents, employees 
and contractors, and what your budget is every year for 
updating flood maps in the United States.
    Mr. Miller. Yes, ma'am.
    Senator Landrieu. All right. How many floodplains do we 
have in the United States; Christopher, do you know? Are you 
the floodplain person?
    Mr. Currie. No, ma'am.
    Senator Landrieu. OK. Who is the floodplain manager? Chad.
    Mr. Berginnis. Yes. In an analysis that we put together, we 
have approximately 1.1 million miles of floodplain and we have 
about 3 million miles of rivers and streams and coastlines in 
the country.
    Senator Landrieu. OK. And individual floodplains, how many 
do we have, or is it 15,000?
    I read somewhere in my notes--let's see. There are 15,000 
State and local officials and other professionals engaged in 
floodplain management.
    So how do you describe a floodplain? The way you just did 
it--by miles? OK.
    So it is one million miles. Tell me again what that is.
    Mr. Berginnis. When you look at coastlines, streams, or 
rivers, in the country, we have about three million miles, 
lengthwise.
    Senator Landrieu. Of coastal?
    Mr. Berginnis. Of coastal and riverine. I do not have a 
breakdown of one versus the other, but that is the total.
    And then of that 3 million miles, about 1.1 million miles 
have identified floodplains associated with those. So only 1.1 
million have floodplains, and the rest of them are along rivers 
and coast, but they are not----
    Mr. Berginnis. They are not even identified.
    Senator Landrieu [continuing]. Designated as flood plains.
    Mr. Berginnis. Right, they are not identified as 
floodplains.
    Senator Begich. Could I just clarify? They could be 
floodplains, some of that. We just do not know.
    Mr. Berginnis. Correct, Senator. That is correct, and that 
is an important aspect of that. The floodplains have not been 
identified, but they most certainly exist in those areas.
    Senator Landrieu. And what does it take to identify them?
    Mr. Berginnis. Essentially, it takes identifying--there are 
two components that really go into flood mapping: knowing what 
your ground looks like--your ground elevations, the topography 
and those things--and knowing what the water does as it flows 
through the area.
    So you have hydrology; that is, really kind of the analysis 
of the water, and that it is usually an engineering type study.
    And then you have topography, and the current way we 
collect that is usually through LiDAR. It is laser-based 
collection.
    And those two components together go through an analysis, 
and you basically have a floodplain at the end of the day.
    Senator Landrieu. OK. How accurate are our floodplain maps?
    So, if people everywhere, in every county, wanted to ask 
you, David, when they go to build their house, how high should 
it be built, how accurate is the information that we are giving 
them--what the elevations are, where they should be, et cetera?
    Do we have 10 percent done? Fifteen percent done? Fifty 
percent done? A hundred percent?
    Mr. Miller. I do not think it is an issue necessarily, 
totally, of the percent done.
    I think, if I understand your question, you are talking 
about the preciseness of the map.
    Senator Landrieu. Well, I am talking about both.
    I am talking about if Senator Begich and I were trying to 
explain to his mother and my mother, OK, of the map of the 
United States, including Alaska and Hawaii, how many counties 
had accurate up-to-date flood maps that would tell at least 90 
percent of the people in those counties whether they were very 
likely to flood, not very likely to flood, or they would never 
flood at all. Try to help us understand in English, OK, what 
the answer to that is, broadly.
    Mr. Miller. Chad.
    Mr. Berginnis. Well, I do know that with the FEMA flood 
mapping program there is a program metric----
    Senator Landrieu. That is not English. You have already 
lost us.
    Mr. Berginnis. OK. There is a measurement.
    Senator Landrieu. Already lost us.
    How many counties are there in the United States of 
America? Does anybody know?
    Eight thousand?
    Anybody in the audience?
    Mr. Berginnis. About 3,300, I believe.
    Senator Landrieu. Thirty-three hundred counties. So let's 
just start with 3,300.
    Does anybody at the table have any idea how many counties 
in the United States of America today have accurate up-to-date 
flood maps that people could actually make decisions about?
    Do not tell me about metrics, Chad.
    Mr. Berginnis. OK. Actually, if I could answer with we, as 
a Nation--honestly, we do not know.
    Senator Landrieu. That is very sad. That is why I tried to 
repeal Biggert-Waters and will continue to do it--because you 
cannot have a flood insurance program without accurate mapping.
    And I am going to get a handle on how many counties have 
accurate maps and how many do not, and we are going to put it 
up either in this Committee or the Homeland Security Committee 
because we cannot make any decisions that make any sense 
without that kind of basic information.
    So I need to know how many people are working on this every 
day, how much is in the budget to pay them to do it, how many 
counties have been mapped, how many counties will be mapped 
next year and how many counties will be mapped in 2016.
    And just for your information (FYI), Senator, the reason 
that we are following this, of course, is because we had flood 
insurance rules of people in my State that were $2,000 for the 
last 20 years and they went up to $30,000 in one year.
    Now they are back to $9,000, but David, that is still too 
expensive, and the people of my State cannot live without this 
program working efficiently and effectively.
    So we had one battle we won with stepping Biggert-Waters 
back, but we have to take the next step, which is why I am here 
on behalf of the five parishes in my State who are Lafourche, 
Terrebonne, Plaquemines, Saint Tammany and Saint Charles--just 
FYI, Senator--who were part of a pilot project in the county.
    Now we have parishes, not counties, and we have five in 
Louisiana that are part of a 25-county pilot.
    So who knows the most about this pilot program?
    OK, David, and talk to me for a minute--and then I am going 
to stop--about where this pilot is in these 25 counties, what 
is happening in these 5 in Louisiana and kind of what you 
expect to come out of this, with what information and when.
    An then I will turn it back to the Chairman.
    Mr. Miller. First, in answer to a number of your questions, 
let me get the staff together and do a mapping brief. It will 
tell you the miles we map and what the budget looks like and 
how many people are involved--all those questions you asked.
    As far as the pilot goes, we did--and actually, sir, you 
talked about rulemaking. We did publish in the Federal Register 
over a year ago about the levee analysis and mapping project.
    When you talk about the preciseness of maps, one of the 
things that came into question is we always looked at levees, 
if they were not accredited in our program, as if by and large 
they did not exist.
    Senator Landrieu. But we changed that.
    Mr. Miller. We changed it.
    Senator Landrieu. We changed the law to make you all 
recognize levees that are actually physically built, whether 
they are Federal or local.
    Mr. Miller. And that Levee Assessment Mapping Program 
(LAMP), that pilot, is part of that.
    We have not passed the regulation yet, but we are doing 
pilots. We are going to pick up a number of pilots again next 
year, and I think the number beyond the 25 is about 80 or so.
    But it takes those levees into consideration about the 
flood protection value----
    Senator Landrieu. Let me ask you something, though, and I 
am going to stop.
    But, Mr. Miller, between now and let's say 2 years, until 
you all get around to the regulations and everything you have 
to do, what are the people in those parishes--what kind of 
rates are they paying? Are they paying rates that recognize 
levees, or are they still paying rates as if no levee was 
there?
    Mr. Miller. Not all those areas are subject to a look at 
their levees.
    What we are trying to do is find out those areas where the 
levee structure are, and many of those are in the parishes that 
you identified in Louisiana.
    We are trying to identify the areas where the LAMP, that 
process of analysis, has the most effect. So you are looking at 
areas of the greatest population and the greatest property 
value. It has the biggest bang for the dollar.
    We will continue to look at those areas, but to say we 
would apply a levee analysis to all areas in our mapping 
inventory, that is not true.
    Senator Landrieu. Well, why wouldn't you do that by just 
common sense?
    Mr. Miller. Because not everybody has a levee and not all 
of them are built to protect housing or businesses.
    Senator Landrieu. That is--OK.
    Well, let me say this; what kind of levee would be built if 
it was not to protect houses or--some levees are built to 
protect agricultural land.
    Mr. Miller. That is right.
    Senator Landrieu. But they have the benefit of also 
protecting homes.
    I mean, they keep fields from flooding, but they also have 
the benefit of mitigating against flooding to the home that 
happens to be on the field or built on the field.
    Mr. Miller. Right.
    Senator Landrieu. Cotton around it, house in the middle, 
protect the cotton, protect the house. But you do not count 
that as protection?
    Mr. Miller. It is not that we would not count it. But, as 
we are going through and making those assessments, the 
assessments will come on those where we get the biggest impact.
    What it means is in that limited budget that we have in 
mapping, I am not going to do a lot of highly rural areas 
because I do not get the impact for the mapping effort. I want 
to look at those where most of the people will be impacted.
    Senator Landrieu. So the people that live in rural areas 
with not a lot of people will pay much higher premiums because 
you do not have the time to map them correctly.
    Mr. Miller. We do not have the resources to map the entire 
Nation.
    Senator Landrieu. Yes, that is a shame, and that is not 
going to be OK with the Senators that represent rural areas.
    Mr. Miller. And my State is one of those.
    Senator Landrieu. Yes. This is why I keep trying to talk 
about this flood program--because farmers have to live in rural 
areas to farm. They cannot live in the middle of the city to 
raise their crops. And so they are now being penalized even 
though they have spent their own money building levees because 
we have a Federal agency that does not recognize the local 
levees. This has to change.
    I am going to end with this. I want you to note to the 
flood managers how disappointed I was that your organization 
did not support our efforts on Biggert-Waters. You all were not 
helpful at all. You remained completely neutral. We had 
thousands of organizations that came to help us pass the 
Biggert-Waters reform, and you all did not support that effort.
    Is that correct in the record, or did you support it and we 
did not know about it?
    Mr. Berginnis. Senator, no, there were----
    Senator Landrieu. Was it yes or no? Did the Association 
support our efforts or not?
    Mr. Berginnis. We did support elements of those efforts.
    Senator Landrieu. Elements?
    Mr. Berginnis. Yes.
    Senator Landrieu. OK. Could you give me what you did 
support and what you did not support in the bill?
    But you did not overall support the bill.
    Mr. Berginnis. We supported, for example, the rescission of 
going to full-risk rates because those were the most impactful.
    Senator Landrieu. OK. All right. Thank you so much.
    Senator Begich. I am going to followup.
    Again, Senator Landrieu, if you have other questions and 
you can stay, feel free. But, if not, I know your timing, like 
all of ours is crazy with all kinds of issues.
    This mapping issue, to me is the most common. Every 
agency--USGS; the Department of Transportation (DOT); to some 
degree, military, depending on if they are domestic bases and 
so forth; FEMA. I can go through the list. Agriculture. They 
all have mapping processes. Not all are linked up, to say the 
least.
    When I was mayor, we had a GIS Division. Everyone wanted to 
do their own maps because they believed they had the better 
maps, whoever that agency was. But it almost was like the 
baselines that these maps had were missing.
    And I think the Building Department--I do not know how many 
different maps they used from different agencies, and then they 
had to overlay them and hope they had the right scale and hope 
they had the right baselines when they were talking about water 
and sewer lines, storm drain systems, storm systems, roads, 
whatever it might be.
    And if I remember my information right--there was a GIS 
technical task force at one point somewhere in the world of the 
Federal Government, and they had recommendations on how to take 
all these resources and figure out how to make sure. So, if you 
needed more maps, you could be talking to USGS, for example, 
because they had a baseline that you could work from.
    Vice versa, DOT, who is shooting maps all the time because 
they have to--all the road projects they do.
    WRDA--the Army Corps of Engineers (USACE) are shooting maps 
all the time, because they have to when they are doing 
projects.
    Doesn't it make sense that we just clean that mess up first 
because you cannot do your job?
    And I think of all these others. We are doing policy around 
how to do building codes and so forth and making sure we have 
the right incentives. And, if your incentives are based on an 
area that is, in theory, a floodplain area, then your 
incentives might be greater than those that are at less risk, 
in theory, might be.
    But, if the maps or the data are marginal--or in the case 
you mentioned, three-plus million miles and a million we know 
we have mapped to some degree, some accurate, some may not be 
because things change, but that other two million is not known.
    Wouldn't it be best if we all hone in on this issue of 
mapping, get the resources and just do it and actually get 
agencies to agree to the baseline so we do not have everyone 
drawing up their own maps and then figure out why we do not 
have enough money for everything because when I talk to the 
National Oceanic and Atmospheric Administration (NOAA) on the 
coastal stuff they do, they never have enough money.
    At the rate they go, it will be 100 years before they get 
close.
    And I hate to break the news to them; the coast is going to 
change over the next 100 years.
    So one storm devastates a coastline, and NOAA then is 
stuck.
    Who would like to--David?
    Mr. Miller. I can do it.
    Senator Begich. I do not mean to leave Chris and Robert out 
of it, but they are probably like, thank God, we are not part 
of this.
    But I have some questions for you separately.
    Mr. Miller. I think the first thing is to recognize some of 
what you have already done. And whether it was in the Biggert-
Waters legislation or previous acts, you have actually required 
us to do that mapping coordination amongst agencies. So we do 
cooperate with USGS.
    Senator Begich. With just USGS?
    Mr. Miller. No, USGS, the Corps of Engineers, the 
Department of Energy----
    Senator Begich. What is the status?
    Mr. Miller. It is that interactive sharing of data.
    Senator Begich. Please do not tell me there is a 
rulemaking.
    Mr. Miller. No.
    Senator Begich. OK.
    Mr. Miller. There is not.
    Senator Begich. But what is happening?
    Mr. Miller. Well, for instance, with the U.S. Geographic 
Service, we share the data.
    But one of the more important things--and Chad talked about 
it. If you look at the flood risk map, what is necessary to 
make it, which is the topography, the elevation piece----
    Senator Begich. Right.
    Mr. Miller [continuing]. As well as the hydrology.
    Senator Begich. And hydrology, yes.
    Mr. Miller. There is a standard for shooting LiDAR. To what 
degree is the----
    Senator Begich. Let me pause you on that. Is that a 
standard, and every agency must follow that standard?
    Mr. Miller. It is the one that we work in cooperation with 
USGS.
    Senator Begich. That is not the question I have.
    Mr. Miller. If other agencies have adopted that standard--
they may have--I am just not aware of it.
    Senator Begich. See, that is my point. I was at DOT, and I 
can tell you the amount of work they do.
    I know from when I was mayor we loved when public works 
were out doing work because, first, they had the money in their 
capital budget so we could push it a little bit further; then 
our planning and zoning folks could tap into it, which meant we 
could have our wetland maps updated.
    Because we had a baseline that everyone had to use. It was 
not an option.
    It was based on policy versus personalities or people who 
actually got together and worked it out.
    So you and USGS are working on these things. But is it 
standardized to require it, and that means the contractor who 
comes in, that is contracted, understands this in every agency 
or just those agencies you are working with?
    Mr. Miller. I would----
    Senator Begich. Do you understand my question?
    Mr. Miller. I would speculate if I said USGS----
    Senator Begich. OK. Do not speculate.
    Mr. Miller [continuing]. Contracted or agreed with other 
agencies.
    Senator Begich. OK.
    Mr. Miller. Frankly, I do not know at that level.
    Senator Begich. Should it be?
    Mr. Miller. Should it be? Yes. It goes back to what you 
talked about in how we share information.
    One of the opportunities for that--whether it is looking at 
the mapping standards. In Biggert-Waters, you set up a 
Technical Mapping Advisory Committee. We are in the process of 
establishing it. It will look at our standards for mapping, our 
methodologies, our modeling--those pieces.
    The good news is that gets discussed not only in the 
Technical Mapping Advisory Committee, but in the Mitigation 
Framework Leadership Group.
    Now you have the interagency effort to begin to look at 
those standards and can we adopt each other's standards and 
move this forward, probably not as much adopting the standard 
as sharing the data and applying it, sensitive to the missions.
    For instance, you talked about working with the Corps of 
Engineers. We do that all the time.
    But they use theirs for design standard. We use the same 
data and apply it a little different analytic to it for the 
standards we need for floodplain mapping. So it is not that we 
do not share data, but the missions are a little bit different.
    Senator Begich. Right. But I can tell you like in BLM--
working with them--they had these crazy standards in regards to 
land surveys in order to transfer lands to States; in our case, 
Alaska.
    They changed the methodology, and the next result is they 
sped up the process because they realized the technology has 
dramatically changed from the regulation. And they are kind of 
fearful of touching the regulation, but they have changed and 
done some modifications.
    So I guess let me ask Chad, and then I am going to go to 
Christopher and Robert, and then close off. I do not mean to 
keep you here this long, but let me--do you believe that there 
should be some baseline?
    I mean, I think at BLM. There are huge lands, touching 
lands and figuring out who gets what.
    The Department of Interior, when they are doing land in 
trust for native land allotments or other lands, they are doing 
surveys and other work. Topography is part of it. Dimensions, 
waterways, all this is part of it.
    Am I missing something here?
    Mr. Berginnis. No. I think you are onto an important issue 
and one where, quite frankly, we have seen a lot of progress 
over the last few years, more broadly, not just mapping but in 
flood management issues.
    Over the last couple of years you have two interagency 
groups--the MitFLG, as Mr. Miller mentioned, and then also the 
Federal Floodplain Management Interagency Task Force.
    This Technical Mapping Advisory Council, which is in the 
process of being stood up, will go to exactly your point 
because some of the other Federal agencies, as well as 
stakeholders, are part of that new Federal Advisory Committee 
Act (FACA) committee. That is going to give them the 
opportunity to discuss this very thing.
    And so we hope, from ASFPM's side, that the TMAC will be 
providing some good recommendations to the FEMA Administrator 
to make some of what you are saying a reality.
    Senator Begich. Will it include the U.S. Conference of 
Mayors, National Association of Counties (NACo) and National 
League of Cities?
    And the reason I ask you that is because, as you know and 
some of the testimony cited, a lot of local governments are 
doing stuff now. Why wouldn't we want to have them at the 
table?
    So when, for example, I was mayor, the planning and zoning 
map that they are doing for our local wetlands development--
they make sure that it is the exact same standard that FEMA 
needs. So, when it is all done and said, actually, you are now 
leveraging multiple layers and taking that minimal budget and 
actually expanding it far beyond.
    Are they part of the equation because they should be?
    Mr. Berginnis. Senator, I just do not recall the identified 
folks.
    Senator Begich. I am looking over here. They should be.
    Mr. Miller. I wish I had it in front of me, but in the law, 
what Congress prescribed was 16 members of the TMAC that 
represent a variety of interests. So it is not just Federal 
interests; it is local government interests and other interests 
in the TMAC.
    Probably just as important, as we move it out, they will be 
able to subset that and bring others into the conversation.
    Senator Begich. OK.
    Mr. Miller. Clearly, with 16 and you talk about those that 
have a role in mapping and even just floodplain mapping, it 
gets to be an expansive group.
    The good news is when we plan on doing the execution we 
need to bring others into the conversation that may not be 
official members, but they will be part of the conversation.
    Senator Begich. I would always say the guideline of the 
Committee is a guideline, in my personal opinion, but I know it 
is statutory; it says 16. But I anticipate you will be 
innovative, to ensure as many stakeholders are at the table to 
maximize the value of this mapping.
    Mr. Miller. Yes, sir.
    Senator Begich. Wouldn't it be nice to have all these local 
governments have the same standards because you will just 
leverage unbelievably for what you can do?
    Mr. Miller. Yes. Well, frankly, sir, I remember doing it, 
as you do, at the State level and even standards there.
    I think there are two parts I want to mention, though, 
because I think it is important.
    One is as we do the Mitigation Framework Leadership Group--
we just talked about expanding the membership and inviting 
people into the mapping piece.
    Senator Begich. Absolutely.
    Mr. Miller. It is not just Federal interagency.
    Senator Begich. That is right.
    Mr. Miller. This is a chance to bring in private sector and 
private nonprofits and territories and local governments and 
Indian tribes, all into that discussion. And we are working in 
those areas.
    For the TMAC, we have to go through all the FACA pieces of 
that and all that vetting. So we are going through that with 
the TMAC.
    At the end of the day, it brings that together.
    But the other piece that Chad and I and others should hit 
on is what we call contributing technical partners in our 
mapping efforts. It really does recognize the work that local 
governments are doing in their own behalf for mapping.
    And there are a number of them that are doing a lot of 
significant work and, frankly, taking our regulatory products 
and executing them well beyond those requirements. North 
Carolina is one of those, and there are others that are doing 
the same thing.
    Senator Begich. OK.
    Mr. Miller. It then becomes a true community partnership, 
and they begin to own their maps instead of simply adopting 
what somebody else presents to them.
    Senator Begich. Very good. Let me switch a little bit.
    Again, thank you for the conversation.
    Robert, let me ask you on the BuildStrong. I know one of 
the biggest issues you all have is building code enhancements. 
Are there other types of incentives?
    Put the building codes over here for a second.
    I can only tell you as, again, a former mayor, when the 
building code revisions came, it was--I have never seen so much 
interest in every element of the code, which is usually big.
    But are there other incentives that we can do?
    Obviously, again, I am assuming you and Christopher and 
others would agree that first the data is very important. If 
you do not have baseline data, it is very hard to know how to 
implement those incentives.
    But let's assume for a moment the data are good, that it is 
all available, no matter what community, what size community 
you go to.
    What are other incentives that you would think other than, 
or in conjunction with, building code standards and other 
things?
    What would be other things that would really help get 
people focused on mitigation rather than waiting for a disaster 
to occur?
    Mr. Detlefsen. Well, Senator, one of them is a legislative 
proposal that I think I mentioned in my oral testimony.
    Senator Begich. You did.
    Mr. Detlefsen. And there are a couple others actually that 
are mentioned in our written testimony.
    The legislation that would allow homeowners and property 
owners to set up tax-free savings accounts that they could use 
solely and exclusively for disaster mitigation purposes, to 
mitigate their homes and make them more resilient and so forth.
    Senator Begich. That would be an incentive for them?
    Mr. Detlefsen. Well, sure, because I mean economic----
    Senator Begich. Yes.
    Mr. Detlefsen. Providing economic incentives for people to 
do the things that are, frankly, in their own best interest are 
sometimes the best ways to get them to do things that are in 
their best interest.
    Senator Begich. Right. I know in Anchorage we always--and I 
say Anchorage, Fairbanks, and I am thinking of areas in Kenai 
where forest fire activity can be very problematic. And mostly 
we have some issues in the south central areas with the spruce 
bark beetle that is wiping out a lot of trees and, of course, 
creating basically ignition capacity.
    Do you think people are incentivized by the fact of clear 
this area away from your house because if you do not, here is 
how close this dead wood is, and it could be basically a fire 
starter if you are not careful?
    Or, do you think you also have to, in situations like that 
have economic incentives to encourage them to do that buffer 
zone, where they see out of every three trees there are two 
that are dead, that are pretty dry, and could create situations 
in the future?
    Mr. Detlefsen. Well, the economic incentives, I mean, are 
also----
    Senator Begich. A big driver.
    Mr. Detlefsen. They are a driver, and they also allow 
people to keep more of their own money so that they have it 
available to spend on these kinds of things--clearing more 
brush as opposed to less brush.
    Senator Begich. Do you think--this may not be something, 
obviously, that can be done on a Federal level.
    But do you think home builders we will use as an example--
if they were incentivized through their building permitting 
process--I have seen what the permits cost here, unbelievable.
    Well, there are no trees really much when you are building, 
but I am thinking of Alaska.
    You could build in an area, and the building permits--if 
there were incentives to offset some of that cost, is that a 
local issue that you guys think about when you are thinking of 
these kinds of policies, or do you mostly focus on the Federal 
kind of component?
    In other words, if you went in to get a building permit to 
build a new home, if you add certain zones to clear around your 
area, fire-safe zones and other disaster potential, that your 
permit would be less cost.
    Mr. Detlefsen. Well, let me first make clear that the 
building codes that we would like to see adopted are ultimately 
local and regionally developed.
    Senator Begich. Adopted, right.
    Mr. Detlefsen. I mean, they are uniform in the sense that 
they are developed by national or international bodies, but the 
codes themselves are responsive to the particular risks that 
are prevalent in particular regions.
    Senator Begich. Right.
    Mr. Detlefsen. So, in a place where there is wildfire 
risk----
    Senator Begich. Like western States.
    Mr. Detlefsen. Sure. Then the codes that we would like to 
see put into place would provide for things like fire-resistant 
roofs and building materials that are less susceptible to 
wildfires when they occur.
    Senator Begich. Versus some place like an urban city like 
this, in a core area, it might be a little different.
    Mr. Detlefsen. Right.
    Senator Begich. For example, as I was describing to my son, 
we are really in a swamp here in the sense of the height we are 
in. When there are flash floods, it floods. It can be very 
quick here.
    So you have a different situation here than forest fires. 
You have flooding issues that could occur. So you might have 
different incentives.
    Mr. Detlefsen. Absolutely.
    Senator Begich. OK. Chris, thank you very much.
    And, again, has GAO--I know in your testimony you had some 
comment, but I want you to verbalize this if you can.
    What are some of the things that may be--and not to pick on 
FEMA, but they are the ones that do mitigation or FEMA 
management and so forth.
    Are there things that are disincentives that FEMA has 
within its processes, may they be regulation and/or programs, 
that cause mitigation to be less readily available or people 
who take it on, you might say, maybe individuals or local or 
even by an agency?
    Mr. Currie. Thank you for the question, Senator Begich.
    Senator Begich. Sure.
    Mr. Currie. As you know, we have ongoing work for your 
Committee. So we have not actually reported on specific 
disincentives.
    Senator Begich. Right.
    Mr. Currie. But one of the things we are looking at is the 
various programs after a disaster, such as HMGP and, as you 
know, the billions and billions that go out the door in public 
assistance funds. Public assistance dwarfs the HMGP.
    Senator Begich. Right.
    Mr. Currie. So one of the things that the Sandy Recovery 
Improvement Act (SRIA), allowed was for better alignment of 
those programs. It used to be where HMGP and the mitigation 
grants kind of came in afterwards and were an afterthought 
after billions had already been obligated.
    We are spending so much on storms. I think it makes a lot 
of sense that those things be integrated and to use those 
massive amounts of funds for mitigation purposes, too.
    The other thing is trying to cut down on red tape, 
honestly. There have been challenges in the past of aligning 
those programs and the paperwork requirements for one versus 
the other after a disaster.
    Within FEMA, those programs are completely separated 
organizationally, too.
    So this is something that we are going to look at in-depth.
    Senator Begich. Good.
    Mr. Currie. Specifically in response to Hurricane Sandy, we 
are going--and not to just focus on one part of the country.
    Senator Begich. Right. That is a big example you can draw 
from.
    Mr. Currie. Exactly. We can go in and look at massive 
Public Assistance (PA) and HMGP projects and actually talk to 
States and locals and see what the process has been, and we 
would like to find out if they have made improvements on some 
of these things that you allow them to do.
    Senator Begich. Sure. Well, one good example--and either 
one of you can correct me if I am wrong here.
    The work they have done in getting debris removal changed a 
little bit--for example, reimbursement to local public works 
and not requiring overtime (OT) all the time, that you have to 
always have overtime, that you can actually reimburse a system 
that exists today.
    I know local governments like it because they can actually 
do the work because in a way, even though it was not overtime, 
they shifted to emergency, which meant all their regular work 
stopped, which was a cost.
    But when they were required just to do overtime, I can tell 
you as a mayor: OK, but we have the crews now on regular time. 
We will just divert them from all this other work they need to 
do, but because we are in a disaster moment, we need them to 
reassess and reshift.
    Is that an example of where some changes have started to 
occur that are cutting the red tape and just saying here is the 
check and get it done? Is that an example?
    Mr. Currie. Chairman, I think debris removal is a good 
practical example, and it actually made me think of another 
point, which is it is not just FEMA in these disasters. I mean, 
HUD was given almost $17 billion.
    Senator Begich. Right.
    Mr. Currie. DOT was given $13 billion in Hurricane Sandy.
    Senator Begich. Right.
    Mr. Currie. So it is not just FEMA's mitigation programs 
anymore.
    And at the Federal level, this is what we are going to 
really look at--how do these things mesh up and how are these 
programs working together--because there are massive amounts of 
money in other places, not just FEMA.
    Senator Begich. When do you think, that you will have some 
of that work started and to bring forward, that we could look 
at as a Committee?
    Senator Begich. Yes.
    Mr. Currie. But we will come up and brief you on the 
results, and we are looking at later this year, hopefully, in 
the fall.
    Senator Begich. Excellent. Good.
    I am going to end there only because, one, thank you, 
unless you have other comments that people want to make. I do 
not want to cut you off.
    But for me, first, your written testimony, your verbal 
testimony--has been very helpful. I think it gives me a little 
food for thought of some things that I think we could be doing 
here.
    I think the mitigation is always going to be a challenge 
because no one wants to fund it.
    And we talk about it after, usually, a disaster. And then 
we go, why didn't we do--fill in the blank.
    Then we throw a few nickels toward it, and then we go, that 
should solve the problem. And, really, it never does.
    I mean, the idea--and I use an example. It was in Kotzebue, 
I think, or it might have been Nome. I cannot remember which 
one now, but it was a road stimulus project.
    It was not a complicated project, but it was a pretty 
important one. And it was just to create a new road along the 
coast. It was not a long strip, but they expanded it a little 
bit in the sense of its width and its height.
    Why did they do that? Because, sure enough, 12 months 
later, an ocean flood occurred. Luckily, that road was there 
because it stopped the flood from going into the city.
    If it would have gone into the city, we probably would have 
estimated half of that community would have been wiped out in 
the sense of a flood.
    Now that would have not--that did not qualify for 
mitigation, but it qualified, and luckily, we had it.
    I get criticized all the time about stimulus money, but 
that is an example that saved a community and a road that was 
designed a little differently in order to create a buffer to 
protect the city when really it was a transportation corridor.
    That, to me, is creative thinking that saves us a lot of 
money. And when I think of that city, what could have happened, 
because it was a winter storm which, you can imagine, in the 
northern part of Alaska a flood occurring in the winter is even 
worse because it is hard to work in those kinds of conditions 
and then we have no places to put people.
    So that is the kind of innovation that seems to be needed 
more and more.
    So, as you work on those issues and recommendations--and I 
know the work you guys are doing, of course, from the mapping 
and from how do we build things the right way.
    I mean, a road is a great example. Roads can be incredible 
erosion protectors, flood protectors, if designed the right 
way, at least from Alaska's perspective, when it comes to 
coastal areas.
    And I just greatly appreciate the work you all have been 
doing.
    I know we get in a tug-o-war because we get frustrated. 
Maybe it is just my mayor days coming back, where we would just 
go do it, and if we think of a logical way to bring the 
stakeholders to the table and go.
    I am hopeful that we can continue to have this conversation 
about mitigation. We will continue to have ideas put on the 
table. And then we will do what we can through this 
Subcommittee but also through the larger Committee because our 
goal in this Committee also has regulatory reform.
    And that is why I was really having two hats on here--one 
as a full Committee Member but also as a Subcommittee Member.
    What can we be thinking of to create this system that moves 
good ideas forward? The two dozen ideas you have--I would love 
to implement some of those.
    I think of the legislation you are talking about. I fear 
passing it and then going, how long will it take us to 
implement it, not because it is an individual, just because the 
system has gotten to the point where it takes so many years to 
move something forward.
    And one thing disasters do not wait for--regulatory 
process.
    In Alaska, we probably experience some form of disaster 
every 2 to 3 weeks. We just had another earthquake--small in 
our comparison. In another community, it might have been very 
large in the sense of its magnitude.
    But we deal with this all the time, and we do not have the 
patience to wait for stuff, to have the regulation drawn up or 
whatever processes.
    So thank you for the opportunity to have you here today. If 
you have any last comments, I am happy to take them, and then 
we will close up the meeting.
    Any last comments from any of the members? Chad.
    Mr. Berginnis. Just two things. One of those goes back to 
the mapping question, as it relates to not knowing what our 
total mapping need is in the country.
    In our Mapping of the Nation Report, we did a cost model, 
and we estimated what it would cost to get the job done, to map 
the entire country. And that cost----
    Senator Begich. May I ask what that cost is?
    Mr. Berginnis. It is between $4.5 and $7.5 billion.
    We have invested right now about $4 billion in the flood 
mapping inventory.
    Senator Begich. So less than 6 percent of what we spend on 
Hurricane Sandy.
    Mr. Berginnis. Yes.
    Senator Begich. That is like overhead in an operation, but 
go ahead.
    Mr. Berginnis. Yes. But it also puts into perspective the 
good work that the Congress has done and I especially wanted to 
mention Senator Reed's leadership in establishing the National 
Flood Mapping Program and the authorization of $400 million a 
year.
    So, in practical terms, if it was fully funded for 10 to 15 
years, we would get the job done.
    Senator Begich. Now that is a very good point.
    Any other last comments before I----
    Mr. Miller. I would offer one, and you mentioned it a 
couple times. In working with GAO and others, the Sandy 
Recovery Act afforded us a lot of opportunities to marry things 
in different ways.
    Sir, you talked about the debris and debris removal, things 
that we are doing now that were largely built out of Hurricane 
Sandy and Hurricane Sandy experiences.
    We talk about integrating what we call PA, or 406 
mitigation, with our traditional 404 programs. We have done 
some things there, for instance, in writing project worksheets 
on the public assistance side for Long Island Power, a public 
utility.
    Senator Begich. Yes.
    Mr. Miller. The traditional public assistance probably 
would have been, if I remember the number right, about $830 
million in their disaster costs to recover in a normal way.
    But because we moved toward mitigation, both on the public 
assistance side and on our side, not in just allowing it but 
requiring them to move toward a mitigative environment, the 
cost went up significantly. That worksheet went from $835 
million to about $1.3 billion. But the savings, the cost-
benefit, against future disasters is significant.
    Senator Begich. Right.
    Mr. Miller. The hard part to sell in any area, whether it 
is a public utility since there is a cost-share or the Federal 
Government and others, is I take the mitigative action, but it 
comes at a cost. And over what term do I see the return on that 
investment? That has been a big part of this discussion.
    In this case, Long Island Power wanted to make this 
investment.
    We are doing it in other areas. We did it in Moore, 
Oklahoma as we built safe rooms in schools.
    We have opportunities where we put mitigation together, but 
without a local community wanting to move in that area, to put 
their money forward, to share in that cost, it can become 
stagnated in a hurry.
    So I will give one other example because I do not want to 
lose this, and it has to do with mapping. When we did best 
available data and tried to set a standard, knowing people 
would be adversely affected in their insurance in New York and 
New Jersey, we put the data out, knowing it was not as precise 
as it could be if we fully vetted it.
    But we wanted to give them the best information we had 
available at that time so they could move forward. The point 
was to allow them to move forward quickly and rebuild.
    Because of that preciseness of the data, or what they saw 
as impreciseness of the data--and in this case the statement 
was that we overstated the risk.
    Now think of this; we overstated the risk.
    People stopped building until the maps became more precise 
because what they were looking for was the difference between 
whether they were in the special flood hazard area or they were 
not----
    Senator Begich. Sure.
    Mr. Miller [continuing]. In the standard to which they 
needed to build.
    We have people living on fine margins that are trying to 
make decisions in an imprecise mapping world. It is not that 
the maps are not true, but we do not pay for a level of 
preciseness----
    Senator Begich. Right.
    Mr. Miller [continuing]. That gets you to live in margins 
of three or four feet, or two or three blocks.
    Senator Begich. Gotcha. Thank you very much.
    Also, I should have said earlier, thank you for I think it 
was 1.3 million of HMGP funds for Galena. That is a good 
example of using some mitigation even though it was post 
because you are getting them to think about the future, and 
that is very helpful.
    Let me say to you all of you, thank you very much again.
    We will keep the record open 15 days for other Members who 
may have questions or comments for the record.
    And, again, all your written testimony will be included in 
the record as well as, obviously, your verbal testimony.
    I know, Mr. Miller, Senator Landrieu had some requests that 
I know you will followup with her, and I appreciate that.
    Again, thank you all very much.
    At this time, the Committee hearing is adjourned.
    [Whereupon, at 3:59 p.m., the Subcommittee was adjourned.]
    
    
    
                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
